31-5591
IN THE
SUPREME COURT OF THE UNITED STATES

Sup^cSUrtTus*
filed

United States Court uf Appeals for the Sixth Circuit

SEP - I 2021
^eoftheclerk

Veretta Burnett

— PETITIONER

(Your Name)
vs.
Merrick Garland etai

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals for the Sixth Circuit

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Veretta Burnett

(Your Name)
16600 Greenfield Rd. #307

(Address)
Detroit. Michigan 48235

(City, State, Zip Code)
313-675-3565

(Phone Number)

Page 14 of 25

QUESTION(S) PRESENTED
Before the Court is Plaintiffand movant's Motion to Compel, Reopen and Reconsider original case 2:09-cv-14238 under Section 242 Liability of State
fficials who act under the color of law violating movants constituional, 5th amendment right to freedom, justice and liberty. When the FBI and City of
Highland Park did notpay Movant and Plaintiff for Geograpghically profiling the Missing Most Wanted World Leaders and Most Wanted Terrorist. City
ifHighland Park seek to hide Discovery by defaming my character by punishment by psychological psychiatric evaluations; to cover up Domestic and
International Terrorism . City of Highland Park attorney is Outright lying in his Motion to Dismiss Plaintiffs Motion to compel , James McGinnis states
’ the reason City ofHighland Park sought to dismiss my Motion in Appendix 5a pg.2 City ofHighland Park states " Plaintiff is bringing up issues that
vere not related to original case such as Domestic Terrorism-international Terrorism. When in Fact James McGinnis himelf Rule 32 (a) (2) through (8)
Jepostiioned Plaintiff about Osama Bin Laden being in the curtilage of Pliantiffs and Movant home,escapingfi'om a secret detention,he had been in
ince 1986 in the City ofHighland Park ML James McGinnis seeks to hide DiscoveryofDomestic Terrorism in City ofHighland Park by simply lying in hi
appeals and seeks to work me with out pay one reason is I alerted the FBI (Chris Hess- 7, David Harmon,and Gwen Rosenthal in her professional and
lersonal capacity concerning FBI Most Wanted Osama Bin Laden)
(1) In General At a heating or trial all or part of a deposition may be used against a party on these conditions:
4) the party was present or represented at the taking of the deposition or had reasonable notice of it;
B) it is used to the extent it would be admissible under the Federal Rules ofEvidence if the deponent were present and testifying; and
, C) the use is allowed by Rule 32(a)(2) through (8).
2) Impeachment and Other Uses. Any party may use a deposition to contradict or impeach the testimony given by the deponent as a witness, or for any other
purpose allowed by the Federal Rules of Evidence.
?; Deposition of Party, Agent, or Designee. An adverse party may usefor any purpose the deposition ofa party or anyone who, when deposed, was the
natty's officer, director, managing agent, or designee under Rule 30(b)(6) or 31(a)(4).
f) Unavailable Witness. A party may use for any purpose the deposition ofa witness, whether or not a party, if the courtfinds:
'4) that the witness is dead;(Peitaining to All Stars Topless Bar)
B) that the witness is more than 100 milesfrom the place ofhearing or trial or is outside the Untied States, unless it appears that the witness's absence was
rocured by the party offering the deposition;
, C) that the witness cannot attend or testify because of age, illness, infirmity, or imprisonment;
ty) that the party offering the deposition could not procure the witness's attendance by subpoena.
i. Is City ofHighland Park violating Plaintiffs 5th amendment right to freedom justice and liberty ? My Liberty has been taken away workingfor the FBI
nd City ofHighland Parkfor over 16 years - since 2005 - also wasVeretta Burnett 4th amendment right and 14th amendment right to procedural and
substantial due process violated when City ofHighland Park Attorney James McGinnis outright lied in his Memorandum to dismiss Veretta Burnetts
Lotion "stating Plaintiff-Appellants request should be denied because the grounds for her request are not related to claims she brought in District Court
-«2009 Rule 32 (a)-(8) Appendix 48a " James McGinnis .Appendix 5a pg.2 (02/05/201l);Which is an outright lie, Plaintiff Veretta Burnett was deposed
.bout Osama Bin Laden by City of Highland Park James McGinnis; Should Highland Park Pay Plaintiffand Movant Veretta Burnett 15 million dollars for
vork done for FBI Chris Hess in City ofHighland Park Deposition of Veretta Burnettforfinding the Missing Most Wanted Terrorist being detained by othe
Terrorist organizations. The Court Should impose Rulell (b)) In General If, after notice and a reasonable opportunity to respond, the court determines
at Rule 11(b) has been violated, the court may impose an appropriate sanction on any attorney, lawfirm, or party that violated the rule or is responsible for
'he violation. Absent exceptional circumstances, a law firm must be heldjointly responsiblefor a violation committed by its partner, associate, or employee
Did James McGinnis, Christopher Trainor and Association, City ofHighland Park, Todd Perkins, seek to defruad the FBI violating Rule 11(b) under
US.C.42 section 242 thatpunishes state officials for violating Plainitiffs Veretta Burnett 4th, 5th, and 14th amendment. ?Under 42 U.S. C. § 1983, Pliantff
eretta Burnett may sue state or local officials for the “deprivation of any rights, privileges, or immunities secured by the Constitution and [federal laws] ”
nder Bivens v. Six Unknown Named Agents ofFederal Bureau of Narcotics, 403 U.S. 388 (1971), you may sue federal officials for the violation of certain
constitutional rights. Did the FBI violate the 5th amendment right to freedom liberty andjustice ofPlaintiffs Veretta Burnetts constitutional right when
™Td‘in?t,Pai»rretta Burnettf°r geographicallyprofiling the 36 Most Wanted World Leaders and Most Wanted Terrorist when they go missingfrom the
FB!. Did the FBI violate U.S.C. 42 ss 242 section 1983 and giving Burnett the immunitiesfor workingfor the FBIfinding the world leaders and Most
anted Terrorist? How long has Plaintiff Veretta Burnett acted at the behest or agent of the statefor the FBI ?
’ Did
and PIaintiff show extra-ordinary circumstances to satisfy Rule 60(b)(6) judgement of District Court when Burnettfiled Motion to re-open
■e c“se 2:09 cv 14238 where I was depositioned (Rule 32(a)(8) about Osama Bin Laden coming to my curtilage-home by City ofHighland Park second a
totion was filed by Plaintiff Veretta Burnett 2017 due to thefact Kim Jong Un the President ofNorth Korea was beingfed infected raw rats which turned
..itoCovid 19 Rats and servicing customers with Acrylic nails, in theCity of HighlandPark in 2014-present. case No. 17-2170 Appendix 4a,5a 16a
Did James McGinnis close the discoveiy of Osama Bin Laden because Plaintiff Veretta Burnett had implemented corrupt police officer Chief Theodore
Caldwell II in the plot to the 911 - World Trade Center attack to the FBI and during the deposition on 02/16/2011 (Plaintiff Testified that OsamaBin
den been inside America since 1986. Detained ? Is City of Highland Park denying Plaintiff to due process under the 14th amendment to procedural and
substantial due process, by misleading the court that the original case in 2009 was not about Terrorism when it '’'Orally was ?
Is this a situation under thefourth and 14th amendmentfor example, ifAngela (Plaintiff) knows Larry ( City ofHighland Park and James McGinnis )
V neighbor sells stolen equipment .AndLarry( City ofHighland Park) keeps the stolen equipment in his abandoned garage. And Angela ( Plaintiff
eretta Burnett) enters Larry Garage and seizes the stolen Property ( Osama Bin Laden & Hamza Bin Laden ) and turns it( them) over the to Police ( FBI)
ecause Larry( City ofHighland Park, customers are Government actors - who uses Larry Garage to sell stolen equipment. Angela (Plaintiff Veretta
uurnett must go to the FBI, As far as the 4th amendment (Plaintiff and movant Veretta Burnett) hasn’t committed a crime .However is City ofHighland
,rk responsible for the Pamtiffsfinancial lost, lost wages owed to Veretta Burnett Plaintiff and movant for not being paidfor the work 1 have done for
B^gents
He™-7 (Christopher Hess), David Harmon and Gwen Rosenthal in her personal andprofessional capacity in the City of Highland Park?
Why would the Federal District court Put Burnett Rule 17 (2)(c) case No. 20-12413 against McGee When Burnett is the Pliantiffand L.Mcgeeismv
’Hgtoer whom under Rule 17(2)(c) a Parent, orfiiend can suefor a minor or incompetent person. City of Highland Park Willful neglect caused me and
<y children greatfinancial lost and bodily harm. My daughter Loreatha Mcgee did not work with the World Leaders and Most Wanted Terrorist but she
as still sex trafficked: My Daughter E.MDB was sexually assaulted by Ali Al- Kindi- Saddam Hussein at the age of 12. Which lead to Jacket and Child
protective cose.
When do private citizens become government actors? (Coolidge v New Hampshire (403 U.S. 443 {1971}
Page 15 of 25

tlST-OF-PARTIES

[ ] All parties appear in the caption of the case on the cover page.
(XI All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Defendant 1: Merrick Garland United States Department of Justice,950 Pennsylvannia Avenue,NW Washingto ,Dc 20530 .
Defendant 2: Saima Mohsin United States Attorneys Office 211 W. Fort street, Suite 2001 Detroit Michigan 48226.
Defendant 3.Cristopher Wray, Chris Hess(7) David Harmon, Gwen Rosenthal in her personal and professional capacity -935
Pennsylvania Avenue, NW, Washington DC 20535 Rule 17(2)(d) Defendant
Defendants 4:Department of Health and Human Services Jacket number 07-474207N,Hubert H.Humphrey Building 200
Independance Ave. ,SW Washington DC 20201
Defendant 5:City of Highland Park Mi.(William T.Ford, Todd Perkins,Mayor Yopp,Chief of Police Theodoe Caldwell II)
12050 Woodward Highland Park Mi. 48203
Defendant 6:James McGinnis 985 E. Jefferson Ave. Ste.100,Detroit Michigan 48207
Defendant 7:Detroit Public Schools Headquarters : Attention Dr. Nikolai Vitti ,3011 West Grand Blvd Detroit
Michigan48202
’
Defendant 8: Danna Nessel Attorney General for Wayne County 3030 W. Grand Blvd. #Suite 10200 Detroit Mi. 48202
Defendant 9: Law Offices of Christopher Trainor and Associates - Sean P. Cabot P-64021 2000 Town Center Suite 1900
Southfield Mi.48075
’

RELATED CASES

Veretta Burnett v. City ofHighland Park and Police Officer Brenda Stevenson Case no. 2:09-cv-J4238
Veretta Burnett v. City ofHighland Park 17-2170
United States v. Brenda Stevenson Police officer of City ofHighland Park
Veretta Burnett v. Merrick Garland et al. 20-12413

Page 16 of 25

TABtE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

20

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

21

STATEMENT OF THE CASE

22

REASONS FOR GRANTING THE WRIT

23

CONCLUSION

24

INDEX TO APPENDICES

APPENDIX A United States Court ofAppealsfor the Sixth Circuit Order Affirming District Court Judgement - Denying motion to
reopen, reconsider and Compel ( June 28, 2021) la
United States Court ofAppeals For the Sixth Circuit Order denying Burnett'smotionfor relieffrom Judgement (April
United States Court ofAppeals for the Sixth Divion Defendants City ofHighland Park, Motion to Dismiss Plaintiffs
Appeal ( February 5, 2018) 5a
United States District Court Eastern District -Southern Division Order Denying Objection and Motion to Compel
c (November 5,2020) 14a
United States District Court Eastern District Southern Division Order Denying PlaintiffMotion to Compel, reopen and
reconsider (September 01,2017) 16a
United States District Court Eastern District Southern Division City of Highland Park v. Burnett, Order denying
Plaintiffs Motion ( September 03,2020) 19a
State ofMichigan Third Judicial Circuit Family Division Request and orderfor review of referee Recommendations
(December 04,2019)
State OfMichigan Third Judicial Circuit Family Division Requestfor Appellate Counsel has been granted. (March
United States District Court Eastern District Court Southern Division Deposition of Plaintiff regarding Osama Bin Laden
by Defendants James McGinnis on Behalf of City ofHighland Park (February 16, 2011) 48a

Page 17 of 25

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

People v Boettner 80 Misc 2d. 3(1974)....................

23

Walter v. United States (447 U.S. 649 (1980).........

.22

Burdeau i> McDowell 256, U.S. 465 (1921)..............

.22

Cooliedge i> New Hampshire 403 U.S. 443 {1971}.

•15,23

Rasul v. Bush (542 U.S. 466 {2004}.

18,23

Hoffa v United States 385,U.S. 293, (1966)....
Monroe v. Pape (365 U.S.167 (1961).............
State v Oldaker ,172 W. Va. 258 (W. Va.1983).
California v. Greenwood
Nix v. Williams (467,U.S.431 (1984)..............
Daniels v.Williams 474,U.S. 327(1986)......... .
United States v. Ruiz 536 U.S. 622................
Spinelli v United States 393, U.S. 410 (1969)..
Aguilar v Texas ,378,U.S. 108 (1964)............ .
Illinois v. Gates 462, U.S. 213 (1983).............
Draper v. United States..................................

.23
.22
.23
23
.22
23
.22,23
.22
.22
.22
22

STATUTES AND RULES

I

r>
/

0
»)

i)
I)

Rule 32 (1) In General. At a hearing or trial, all or part of a deposition may be used against a party on these conditions:
(A) the party was present or represented at the taking of the deposition or had reasonable notice of it;
(B) it is used to the extent it would be admissible under the Federal Rules of Evidence if the deponent were present and testifyingand(C) the use is allowed by Rule 32(a)(2) through (8).
’
(2) Impeachment and Other Uses. Any party may use a deposition to contradict or impeach the testimony given by the deponent as a
witness, or for any other purpose allowed by the Federal Rules of Evidence.
(3) Deposition of Party, Agent, or Designee. An adverse party may use for any purpose the deposition of a party or anyone who, when
deposejhwas the party's officer, director, managing agent, or designee under Rule 30(b)(6) or 31(a)(4).p.22,23,
Rule 17(2)(c) p.22 p.23
42 U.S.C. Section 242 liability of state officials who violates a person constitutional amendments acting under the color of law p.22
42 U.S.C. Section 11983 : Liability of State Officials and Section 1983 who refuse to stop illegal Ku ,Klux,K]an Activity
Totality of Circumstancesl. When the Plaintiff describes how she found out about the criminal activity! Most Wanted World Leaders
and Most Wanted Terrorist)? (2)When Plaintiff can give detailed descriptions about the criminal(Terrorist activity) activity9 (3)The
evidence the movant gave was reliable.(Where both Osama bin Laden's located , Kim Jong Un location and the location of 36 World
Leaders and Most Wantedd Terrorist (4)When the Plaintiff can give information that can be corroborated by the FBI or Police7(5)
When the information that was given to the FBI, Shawn Cabot, Merrick Garland et al implements Plaintiff working in the sex '
mdustiy as a Topless Dancer. (Rule 32 (a-8) Depositions and Federal Rules of evidence . Shawn Cabot my attorney was given a brief on
what the KKK was feeding Kim Jong Un in 2011, when I was deposed about Osama Bin Laden .

OTHER
Rasul v. Bush (542 U.S. 466(2006} Four British and Austrailian citizens were captured by the American military in
Pakistand and Afghanistan- they were transported to American military base Guantanamo Bay Cuba . Their families
sued in federal district court. The Government countered arguing that the U.S. courts have no jurisdiction over the
c aims because the prisoners were not U.S. citizens. The Supreme Court sided with the Plaintiffs in the case. It held that
U.S. Courts do have jurisdiction over such cases. This case made it clear that appeals filed on behalf of foriegn citizens
held by the U.S. military in Guantanamo Bay have some recourse to challenge their indefinite detention.

Page 18 of 25

IN THE
SUPFUME-GOUBTOF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix la>4a>5atn
the petition and is
fXl reported at Sixth Circuit ofAppeals Court
; or,
[ ] has been designated for publication but is not yet reported; or,
bC is unpublished.

3

D
n
r/

r\

The opinion of the United States district court appears at Appendix 14-16>19a to
the petition and is
renort,ed at, 47nited States District Court Eastern District ofMichigan

— —---------------------- ——— i or,
[ ] has been designated for publication but is not yet reported; or,
[XT is unpublished.
(Xl For cases from state courts:

j

D
I
ft

The opinion of the highest state court to review the merits appears at
Appendix Pa>47a to the petition and is
Trf reported at _ Third Judicial Circuit Family division
.™
X has been designated for publication but is not yet reported; or,
[ ] is unpublished.
%

------------------------------------------------------- —-----------------f U1 J

The opinion of the
N/A______________ _
court
appears at Appendix _N/A to the petition and is
[ ] reported at_______ &A______________ __________ or
[ ] has been designated for publication but is not yet reported; or,
lXl is unpublished.
1.

Page 19 of 25

JURISDICTION

^ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
WaS

hittv 7X 71171____________________ __

[ ] No petition for rehearing was timely filed in my case.
{Xf A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: June 28,2021_____________? an(j a COpy 0f
order denying rehearing appears at Appendix la
^1 An extension of time to file the petition for a writ of certiorari was granted
to and including...October 18>2018______ (date) on
28,2021__________ (<jate)
in Application No. 18 A 9
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

a

^7

3

D

D
0
0
»

D

I)
\)

X ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix 22a> 47a

Third Judicial Circuit

A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
] An extension of time to file the petition for a writ of certiorari was granted
to and including-------m_______ (date) on
N/A________(date) in
Application No. n/a A n/a
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

Page 20 of 25

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Burnett vMcGee No. 20-12413, 2020 WL 5984370, at *1 (ED Mich Septl6,2020)(report and recommendations Appendix la( June 28,2021)
*2 Burnett v City ofHighland Park No. 2:09-cv- 14238-MOB-RSW,2017 WL 6S04003, at *2 (E.D. Mich Sept 01,2017) Appendix la
Burnett, 2020 WL 5984370 at *3 28 V.S.C. subsection 1915 (e) (2) (b) Appendix la
De novo under subsection 1915 (e)(2) Appendix la, Ashcroft v Iqbal, 566 U.S. 662 (2009) Appendix la, Bell ATL Corp. v Twombly, 550 V.S. 544,
570 (2007) Appendix la
Rule 60 (b)(6) Burnettfiled a 42 U.S.C Subsection 1983 Complaint against City ofHighland Park Appendix- 4a (April 17, 2018)
Rule 60 (b) Appendix 4a, Teschick v. Mineta, 675 F. 3d 622,628( 6th Cir.2012) Appendix 4a
United States Court ofAppeals -City ofHighland Park Motion to dismiss Appeal -Highland Park attorney James MGinnis Lying about Terrorism
and Osama Bin Laden location in Motion to Dismiss, in question 4. Plaintiff -Appellants request was denied because the grounds for her request
are not related to the claims in district court in 2009 ( Order denying Motion to Reopen, reconsider, compel (Case 17-2170) Rule 32(b)(8) United
States District Court ofAppeals Eastern District Deposition ofPlaintiff and movant Burnett by James McGinnis on Osama Bin Ladens Location
living with Pliantiff and coming to visit Appendix 48a 2:09-cv-14238 (February 16, 2011)
Section 802 of the U.S. Patriot Act & Section 808 of the U.S. Patriot Act Appendix 5a ( February 5,2018)
Powell v Berghuis,S06 F. App'x,442,448,(6th cir. 2013) Appendix 5a (February 05,2018)
Appeals are denied ifthey are not raisedfor thefirst time on appeal Rutcoskey by Perez v. U-Haul, Inc, 89 F. 3d 835 (6th Cir. 1996) Appendix 5a
(February 05,2018)
Plaintiffs motion to compel, reopen and reconsider - Deposition ofPlaintiff and movant Rule 32(b) (8) regarding Osama Bin Laden and my Agent
Chris Hess -a deposition used in earlier action can be used in later actions ifit has the same parties or their representatives or successors as for
Federal rules ofevidence (February 16,2011) taken by Defendants James McGinnis representing City ofHighland Park and Brenda Stevenson (
Appendix 48a)
Bamas v. CitiMortgageJnc, 577F. App'x 616 (6th Cir. 2014) Appendix 5a (Feb.6,2018) In this instance, the issues Plaintiffs wants to argue were
not preservedfor appeal 5a
The Defendants City of Highland Park claim Domestic and International Terrorism was not involved, refer Burnett v. City of Highland Park
2:09-cv-14238 Deposition ofPliantiffBurnett about Osama Bin Laden Rule 32 (b)(8)
The United States v. Brenda Stevenson et al. - use ofExcessive Force and lying to FBI; movant Burnett testified against Srgt Brenda Stevenson
(Februatyl6 foil)^"
(2:09'cv-1423^ and Chris Hess Plaintiffs Agent ( FBI David Harmon at trial ofSrgt. Stevenson) Appendix 48a
Defendants City ofHighland Park moves to dismiss Plaintiffs appeals pursuant Rule 27 (d) Defandants moves to dismiss appeals Appendix 5a
(February 16,2011)
The order to Compel the FBI to pay Plaintiff and Movant 15 millions dollars is denied Appendix 14a (Novenmber 5th 2020)
Gonzalez v. Crosby ,545 U.S. 524,535,125, S. CL 2641,2649,162 L. Ed. 480(2005) 545 U.S. 524,535 (2005) Appendix 19a September 3,2020
State and Federal Judges abuse ofpower by not taking Judicial notice in 2;09-cv-14238 of Osama Bin Laden location and legal documents presented
m State Court ( United States v Ruiz 536 U.S. 622 as a matter offact Judges have the duty to disclose exculpatoiy evidence at the beginning ofa trail
as a matter ofdue process not at the end of trial). Appendix 22a, December 04,2019

Page 21 of 25

STATEMENT OF THE CASE
TtrZ“ ™

f"/£ 0fZ7r iJ“stices should side with toe Plaintiffand movant Veretta Burnett .42 V.S. C. Section 242

tllw! fhPlam‘ ff° ™0U°n based on Defendant-Appellee statements.Appendix Sa reason and statement 4." Plaintiff-Appellant s request was denied

M, ‘orrecfZLionlwZ2t£?J£,rrH

*" f?"ZU; ”"■"***

2m> "* »i™' agoing,. JFBI

HiJESSESFF^^
SS5S3S§SSS§lll|Sa^3£Sf

me wTtakelpZeZth TJlma/shepZd’^at oZtaBin Lad " ^Tab H°’?e"°pen-field" "' /Ae <% of Highland Park ^pHan-style

over a 16 year period. In Splntlll r. United States .393 V.S. UtHlU9) aLust s Texas 376 I/S Mfl9Ut TbA^T*?!M.°“ W“M“‘ rf™™'

552SSa^3^e&5S3K*33^~

JVMT
In Spinelli the test is rather the PMntiffsinteZent 11^7 \T
,
than a casual rumor.Illinois v. Gates
“ “fT “f
Circumstances " In Draper v. United States^Ihe ^Suprernelustices^houU ^coriside^liHow riie

'** Bl°ck community *» doing acrylic nails in a
* V *«* something substantial
and rePjacedd with "The Totality of

aSssSSS=2=sS2^i~iS=H%S!“S5~!'
*sffr

or. RTio

Paae 22 of 25

REASONS FOR GRANTING THE PETITION
—An^itherwise-privateperson-ean4)eGome^i-eovernmentofficial-if4ie^>rsheacLs-atthphph0sU>fiA-gi>»,>,„m*„t-»ffinnl_Tn_n»,>1idg<‘v Nm,
Hampshire (403U.S.443{1971} The Supreme Court stated that the test is whether {the private person} in light ofall the circumstances of
the case, the private person can be regarded as having acted as an instrument of the state. According, to Worralwhen government officials
join in on a private search or instruct a private individual to search, the private individual, can be viewed as a government actor within the
meaning of the Fourth amendment Just as when the FBI added Osama Bin Laden to the Most Wantedfugitive list, when Osama Bin
Laden went missingfrom the FBI, a search was instructed by the FBI. A variation ofthis line of cases is one in which a government
official does not actively participate in or order a search or seizure but instead merely provides information that leads to a private search or
seizure (People i>. Boettner 80 Mise 2d 3{1974}. This is a case under the Fourth and Fourteenth amendment where the City ofHighland
Park ( Theoretically) sells stolen equipment,(in this case Most Wanted World Leader and Most Wanted Terrorist to the KGB) and the City
ofHighland Park keeps that Stolen Equipment in its abandoned homes, not in its curtilage, but the open fields of its garages and Plaintiff
went in andfound that stolen Equipment and turned it over to the FBI. Burnett the movant and Plaintiff did not commit a crime. Plaintiff
is not asking the Supreme Court to decide a case that's been settled. But decided rather the City ofHighland Park is violating the
Plaintiffs constitutional rights when it comes to life, liberty, andfreedom, The right to be paidfor the work Ive donefor Detroit Field FBI
filed office,. In 2017 pre-covid 19 City of Highland Park should have paid Plaintiff, when Plaintifffiled Motion to Compel, reopen, and
Reconsider, when Burnett the Movantfiled "apaidfor"($505.00) complaint in the motion to reopen, compel, reconsider Regarding Kim
Jong Un eating raw infected rats and servicing the Black community, in a nail salon. Walter v United States (447 U.S.649(I980) the court
ruled that a wrongful search and seizure conducted by a private party does not violate the Fourth amendment against Plaintiff and does
not deprive the government ofthe right to use evidence that it has acquired (from a thirdparty) lawfully. (State t>. Oldaker,! 72 W. Va.
258{W. Va.1983} In my weekly nail appointment Kim Jong-UN(17-2170) Rule 32(a)-(8) (Rule 17(2)(c) alike fiduciary can sue on behalf of
an incompetent person or minor( Which should be the FBI- Detroit Field office). The City ofHighland Park's attempt to sell Ballistic
Missies to Russia and China through the KKK who was deemed a Terrorist organization. The details were specified in (20-12413). Covid
19- has had a global effect with the zoonotic disease SARS-2 designed to torture the President ofNorth Korea. The City of Highland Park
would have the. Court to believe that the original case 2:09 -cv-14238 did not involve Domestic and International Terrorism when James
Mcginms himself questioned me about Osama Bin Laden " the one from the caves ofAfghanistan " City of Highland Park Attorney James
Mcginnis asked Plaintiff Veretta Burnett What are Government officials? The FBI Chris Hess-7, David Harmon, Gwen Rosenthal are
Government officials, whom the Plaintiff turned over Most Wanted World Leaders and Most Wanted Terrorist to the FBI whom the City oj
Highland Park had not turned over since 1986 involving Osama Bin Laden number 2 - Aaron Labarrie, and in 2014 the City of Highland
Park had not turned over its Most Wanted World Leader - Kim Jong Un - Instead they allowed China to ship andfeed Kim Jong Un
infected Covid 19 rats while he serviced up to 100 customers daily doing acrylic nails. Rulel7(2)(c) The FBI need to file for custody of
KimJong UN Under Rule (S)( Rule 11(b) has been violated, the court may impose an appropriate sanction on any attorney, law firm, or
party that violated the rule or is responsiblefor the violation. Absent exceptional circumstances, a lawfirm must be heldjointly responsible
for a violation committed by its partner, associate, or employee.(2) Motion for Sanctions. A motion for sanctions must be made separately
from any other motion and must describe the specific conduct that allegedly violates Rule 11(b). The motion must be served under Rule 5,
but it must not be filed or be presented to the court if the challengedpaper, claim, defense, contention, or denial is withdrawn or
appropriately corrected within 21 days after service or within another time the court sets. Ifwarranted, the court may award to the
prevailing party the reasonable expenses, including attorney's fees, incurredfor the motion.(3) On the Court's Initiative. On its own, the
court may order an attorney, law firm, or party to show cause why conduct specifically described in the order has not violated Rule 11(b)
City ofHightand Park James McGinnis continues to misconstrue the Plaintiffs words "making real-life instances sound unbelievable"
McGinnis's entire Motion to Dismiss Plaintiffs Appeal was based on a "lie". The entire case 2:09cv-14238 totally hinged on City of
Highland Park Chiefof Police committingfires, hanging outpublically with a known Most Wantedpedophile and Fugitive Richard Steve
Goldberg who lived in my apartment building at 11 Farrand Park, in the City ofHighland Park. Which is one of the fugitives Plaintiff
Veretta Burnett turned over to the FBI whom the City ofHighland Park was harboring and disguising him as a reporter. The North
Koreans -Kim Jong Un allows anyone to walk into his nail salon to get their nails done. Hoffa v United Statesf 385 U.S.293 (1966) Hoffa
had a conversation with a government informant inside Hoffa'sprivate suite. Hoffa sought to have the informants -evidence testimony exc u e or suppressed on the grounds it was an illegal search. The Supreme Court disagreed, noting that the informant "was not a
surreptitious eavesdropper" but a person who was in the suite by invitation, and every conversation which he heard was either directed to
him or knowingly carried out in his presence. ( This is a case of abandoned property California v. Greenwood "Garbage bags left on the
side of the road or public streets are readily accessible to animals, children scavengers, snoops, and other members ofthe public. (So is
Kim JongUn secret Detention andjob at the nail salon.« The City ofHighland Park has no claim to a person's external physical
characteristics, m which World Leaders and their Physical Characteristics are knowingly exposed to the public and thus are outside ofthe
pnvate Search- This is a 1983 suit is for constitutional rights violations (Daniels v. Williams (474,
U.S.327(1986) The City ofHighland Park is showing culpability when they did not stop Kim Jong Un from eating Covid 19 Rats and doing
Zti,T^nL,l%i0fu^lanf Paf ( RUlB 17(2)(c)(3> A
fiduciary can sue on behalf of an incompetent person. (Rasul v Bush
%t^KKKnrH* I i u
t° ** “ ^ ^ 19(42 U& C Seedm 1983 Liabili» °fState °ffi"to refuse to stop
illegal KKK activity. In which the KKK has set up and bought into Black Haircare and Black nail care, In which they have Kim Jong-UN,
rS/aTu- Ti
eati"8 Covid 19 rats so that Russia a»d China can buy Kim Jong Un Ballistic Missies capability. In Which the
City ofHighland Park is punishing me, by misconstruing my words in the Deposition taken about Osama Bin Laden being in my curtilage
(home) from a secret detention. An abandoned home that had been abandoned and now housed German Shepard -Egyptian style torture
dogs. In Fact, James Mcginnis reported that Kim Jong Un tried to fight me. That is true. I wanted to know "who was doing my nails
because heJDanny) looked like Kim Jong Un but 150pounds lighter and about Ifoot shorter without those heel shoes Kim Jong-UN wears
in North Korea. KimJong Un brought about 20 females to fight me- however by my next appointment I went to Tim - Kim Jong Un
Soldier to do my nails (because they are soldiers the acrylic nail don’t last, you have to go back almost once a week) Tim told me that "he
didn twant to eat rats any more " by 2019 Tim was sent to California. Tim also said he had 2 Suns eating rats. Then Sun Sun Chinese
opened on the border between Detroit and the City ofHighland Park - Kim Jong-UN soldiers and grandparents opened up a Chinese
restaurant @230 W. McNichols (313-883-1168) The Supreme Justices should grant this Writ because the City ofHighland Palis
MlSofthepatidlalt
1nternatWntd Terrorism by claiming movant is Fantasizing to simply fraud that Court and Law under section

Page 23 of 25

CONCLUSION

The petition for a writ of certiorari should be granted.

Respec

Date:

si

itted,

September 01,2021

Pane 24 of 25

